No. 19-968
In the i§upreme Court of the Einiteb 4§tate5
CHIKE UZUEGBUNAM, ET AL.,
Petitioners,
v.
STANLEY C. PRECZEWSKI, ET AL.,
Respondents.
On Writ of Certiorari to The United States Court of Appeals For the
Eleventh Circuit

BRIEF OF THE NATIONAL CONFERENCE OF
STATE LEGISLATURES; THE COUNCIL OF STATE
GOVERNMENTS; THE NATIONAL ASSOCIATION
OF COUNTIES; THE NATIONAL LEAGUE OF
CITIES; THE UNITED STATES CONFERENCE OF
MAYORS; THE INTERNATIONAL CITY/COUNTY
MANAGEMENT ASSOCIATION; THE
INTERNATIONAL MUNICIPAL LAWYERS
ASSOCIATION; THE GOVERNMENT FINANCE
OFFICERS ASSOCIATION; THE NATIONAL
SCHOOL BOARDS ASSOCIATION AMICI CURIAE
IN SUPPORT OF RESPONDENTS
Lisa Soronen
Executive Director
State & Local Legal Center
444 North Capitol Street, N.W.
Suite 515
Washington, D.C. 20001
(202) 434-4845
Isoronen@sso.org

Patrick M. Kane
(counsel of record)
Kip D. Nelson
Fox Rothschild LLP
230 N. Elm Street
Suite 1200
Greensboro, NC 27401
(336) 378-5200
PKane@foxrothschild.com
KNelson@foxrothschild.com
Christopher McNamara
Fox Rothschild LLP
345 California Street
Suite 2200
San Francisco, CA 94104
(415) 539-3357
CMcNamara@foxrothschild.com

Counsel for Amici Curiae

1

TABLE OF CONTENTS
Page:
TABLE OF AUTHORITIES

iii

INTEREST OF A.MICI

1

SUMMARY OF ARGUMENT

3

ARGUMENT

6

I. Our Judicial System and This Court's
Jurisprudence Are Based on Adherence
to the Constitutional Requirement that
Federal Courts May Only Entertain
Actual Cases and Controversies

6

The mootness doctrine is necessary
to ensure that an actual case or
controversy exists at all stages of the
litigation

6

Nominal damages alone do not
the
redressability
satisfy
requirement

8

The decision below is consistent
with the prohibition against
advisory opinions

11

A rule that nominal damages alone
prevent mootness allows an end run
around the Court's rejection of the
"catalyst theory."

14

II. Federalism Supports Adoption of the
Decision Below

16

III.Local Governments Cannot Simply End
the Litigation by Accepting an Entry of
Judgment

23

11

IV.A Desire for Additional Law Does Not
Justify Disregarding Mootness
CONCLUSION

25
28

111

TABLE OF AUTHORITIES
Page(s):
Cases:
Agudath Israel of Am. v. Cuomo,
F.3d 2020 VVL 6559473
(2d Cir. Nov. 9, 2020)

18

Alvarez v. Smith,
558 U.S. 87 (2009)

7

Ashcroft v. Mattis,
431 U.S. 171 (1977)

9

Ashwander v. Tenn. Valley Auth.,
297 U.S. 288 (1936)

8, 11

B.L. ex rel. Levy v. Mahanoy Area Sch. Dist.,
964 F.3d 170 (3d Cir. 2020), petition for cert. filed,
21
(U.S. Aug. 28, 2020) (No. 20-255)
Beck v. Ohio,
379 U.S. 89 (1964)

23

-

Black Lives Matter L.A. v. Garcetti,
No. 2:20-cv-04940-PSG-PVC
(C.D. Cal. filed June 3, 2020)

20

-

Bogan v. Scott Harris,
523 U.S. 44 (1998)
Buckhannon Bd. & Care Home, Inc. v.
W. Va. Dep't of Health & Human Res.,
532 U.S. 598 (2001)
Calvary Chapel Dayton Valley v. Sisolak,
140 S. Ct. 2603 (2020)
Carey v. Piphus,
435 U.S. 247 (1978)

22

14, 15, 25
18, 19
11

iv
Castro v. United States,
540 U.S. 375 (2003)

7

Chafin v. Chafin,
568 U.S. 165 (2013)

6

City of Erie v. Pap's A.M.,
529 U.S. 277 (2000)

7

City of Richmond v. J.A. Croson Co.,
488 U.S. 469 (1989)

16

Davison v. Randall,
912 F.3d 666 (4th Cir. 2019)

21

Diamond v. Charles,
476 U.S. 54 (1986)
Farrar v. Hobby,
506 U.S. 103 (1992)

9
9, 10, 11

Flast v. Cohen,
392 U.S. 83 (1968)

6

Harvest Rock Church, Inc. v. Newsom,
977 F.3d 728 (9th Cir. 2020)

18

Jackson v. McCurry,
762 F. App'x 919 (11th Cir. 2019)

21

Lujan v. Defs. of Wildlife,
504 U.S. 555 (1992)

7

Lyng v. Nw. Indian Cemetery Protective Ass'n,
485 U.S. 439 (1988)

8, 11

Maryville Baptist Church, Inc. v. Beshear,
977 F.3d 561 (6th Cir. 2020)

19

Mission Prod. Holdings, Inc. v. Tempnology, LLC,
139 S. Ct. 1652 (2019)
Morse v. Frederick,
551 U.S. 393 (2007)

8

17, 18

V

North Carolina v. Rice,
404 U.S. 244 (1971)

8

Oklahoma City v. Tuttle,
471 U.S. 808 (1985)

24

Pearson v. Callahan,
555 U.S. 223 (2009)

12, 22, 25, 26

Pennsylvania v. Finley,
481 U.S. 551 (1987)

7

Robinson v. Hunt Cty.,
921 F.3d 440 (5th Cir. 2019)

21

S. Bay United Pentecostal Church v. Newsom,
140 S. Ct. 1613 (2020)
S. Wind Women's Ctr. LLC v. Stitt,
823 F. App'x 677 (10th Cir. 2020)
Saucier v. Katz,
533 U.S. 194 (2001)
Spell v. Edwards,
962 F.3d 175 (5th Cir. 2020)
Spokeo, Inc. v. Robins,
136 S. Ct. 1540 (2016)
St. Pierre v. United States,
319 U.S. 41 (1943)

18, 19
19
26, 27
19
6, 7

8

Statutes:
42 U.S.C. § 1983

24

42 U.S.C. § 1988

9, 14

vi
Constitutional Provisions:
17, 25

U.S. Const. amend. I

16

U.S. Const. amend. X
U.S. Const. art. § III

3, 6, 9, 11

Other Authorities:
Andrew Kragie, Key Senators Want to
Add New Federal Judgeships This Year,
Law360 (June 30, 2020)

13

Civil Rights Suits Against Schools More Than
Double in Last Four Years, Transactional
Records Access Clearinghouse (Aug. 16, 2017),
https://trac.syr.edu/tracreports/civi1/478/

13

Tim Ryan, Senators Urge Addition of
Judgeships as Caseloads Balloon,
Courthouse News Service (June 30, 2020),
https://www.law360.com/articles/1287677/
key-senators-want-to-add-new-federaljudgeships-this-year

12

1
INTEREST OF AMICP
The National Conference of State Legislatures
(NCSL) is a bipartisan organization that serves the
legislators and staffs of the nation's 50 States, its
Commonwealths, and Territories. NCSL provides
research, technical assistance, and opportunities for
policymakers to exchange ideas on pressing issues.
NCSL advocates for the interests of state
governments before Congress and federal agencies
and regularly submits amicus briefs in cases, like this
one, that raise issues of vital state concern.
The Council of State Governments (CSG) is the
nation's only organization serving all three branches
of state government. CSG is a region-based forum
that fosters the exchange of insights and ideas to help
state officials shape public policy. The organization
offers regional, national, and international
opportunities for its members to network, develop
leaders, collaborate, and create problem-solving
partnerships.
The National Association of Counties (NACo) is
the only national association that represents county
governments in the United States. Founded in 1935,
NACo serves as an advocate for county governments
and works to ensure that counties have the resources,
skills, and support they need to serve and lead their
communities.
The National League of Cities (NLC) is the oldest
and largest organization representing municipal
1 No

counsel for a party authored this brief in whole or in part,
and no person or entity other than amici, their members, and
their counsel made a monetary contribution to the preparation
or submission of this brief. Blanket consent letters are on file
with the Clerk.

2
governments throughout the United States. Working
in partnership with forty-nine state municipal
leagues, NLC is the voice of more than 19,000
American cities, towns, and villages, representing
collectively more than 200 million people. NLC works
to strengthen local leadership, influence federal
policy, and drive innovative solutions.
The United States Conference of Mayors (USCM)
is the official nonpartisan organization of the more
than 1,400 United States cities with a population of
more than 30,000 people. Each city is represented in
the USCM by its chief elected official, the mayor.
The International City/County Management
Association (ICMA) is a nonprofit professional and
educational organization of more than 12,000 appointed
chief executives and assistants serving cities, counties,
towns, and regional entities. ICMA's mission is to
advance professional local government through
leadership, management, innovation, and ethics.
The International Municipal Lawyers Association
(IMLA) is a nonprofit, nonpartisan, professional
organization consisting of more than 2,500 members.
Membership is comprised of local government
entities, including cities, counties, and subdivisions
thereof, as represented by their chief legal officers,
state municipal leagues, and individual attorneys.
IMLA's mission is to advance the responsible
development of municipal law through education and
advocacy by providing the collective viewpoint of local
governments around the country on legal issues
before state and federal appellate courts.
The Government Finance Officers Association
(GFOA) is the professional association of state,
provincial, and local finance officers in the United

3
States and Canada. GFOA has served the public
finance profession since 1906 and continues to
provide leadership to government finance
professionals through research, education, and the
identification and promotion of best practices. Its
more than 19,000 members are dedicated to the sound
management of government financial resources.
The National School Boards Association (NSBA),
founded in 1940, is a nonprofit organization
representing state associations of school boards
across the country. Through its member state
associations, NSBA represents more than 90,000
school board members who govern nearly 14,000 local
school districts serving almost 50 million public
school students. NSBA's mission is to promote equity
and excellence in public education through school
board leadership. NSBA regularly represents its
members' interests before Congress and federal and
state courts and has participated as an amicus curiae
in numerous cases before this Court.
SUMMARY OF ARGUMENT
This case asks whether a change in the law renders
a case moot when the plaintiff has not sought
compensatory damages but has included a token
request for nominal damages. To answer this question,
the Court must consider the scope of Article III
jurisdiction, the core principles of this country's
adversarial judicial system, and our federalist system
of government. The mootness doctrine recognizes the
limits of Article III, protects the integrity of the
adversary system, and respects federalism. The
mootness doctrine is not, as petitioners implicitly
characterize it, a way for government defendants to
avoid decisions on the merits.

4
Strict adherence to the constitutional provision
that limits federal courts' jurisdiction to "Cases" or
"Controversies" is important because it ensures that
a favorable judicial decision is likely to redress a
plaintiffs claimed injuries. When only nominal
damages are at stake, because a law or policy has
been changed and there has been no actual injury, a
judicial determination will not redress anything and
the case is moot. That judicial determination would
be no more than an advisory opinion that at best
would provide some measure of psychic satisfaction to
one of the parties. Thus, as a practical matter,
petitioners here are asking this Court (and lower
courts) to sanction the issuance of advisory opinions.
Our Constitution strictly prohibits that.
Advisory opinions run counter to the need to
conserve judicial resources, and they run counter to
the fundamental premise of our adversary system
that something real must be at stake so that parties
are sufficiently and appropriately motivated to
present their case. Under petitioners' proposed rule,
constitutional litigation will never be moot so long as
the plaintiff inserts a boilerplate request for nominal
damages. In other contexts, this Court has already
recognized that the purpose of constitutional
litigation should be to develop proper laws and
policies in actual cases and controversies—not to
reward plaintiffs with Pyrrhic victories.
The rule espoused by the Eleventh Circuit in the
case below also respects federalism. As recent
pandemic-related litigation and many other examples

5
show, states, local governments, and school districts
often must make difficult constitutional judgment
calls in rapidly evolving situations with public safety
at stake and without clear jurisprudence to guide
them. When there is a challenge to a law or policy
enacted in these situations and the government
voluntarily changes the law or policy with no
likelihood of reenactment, then federalism dictates
that the case is moot. Like the well-established
doctrines of absolute and qualified immunity, this
recognition encourages public officials to timely act
when the public interest requires bold and
unhesitating action. It encourages government
officials to reevaluate and, if appropriate, change laws
and policies when they are challenged as
constitutionally questionable. It also mitigates the
expenditure of judicial resources reaching decisions
on constitutional issues that have no practical effect,
minimizes the burden on the lower courts, prevents
the waste of taxpayer resources on the unnecessary
litigation of constitutional issues, and lessens the risk
of bad decision-making by ensuring the parties
presenting the case are properly motivated. And
under the decision below, individuals still can redress
an actual injury caused by a constitutional violation,
as a case can only be dismissed as moot if the plaintiff
did not suffer a tangible and compensable injury.
Contrary to the United States' argument, local
governments and government officials should not be
forced to accept judgments against them in order to
avoid protracted and costly litigation over a single
dollar. These judgments carry many negative
consequences. And petitioners' and their amici's

6
desire for more constitutional opinions does not
justify ignoring the legal doctrine of mootness.
The decision below should be affirmed and the rule
be adopted by this Court: when a challenged law or
policy has been changed and all that remains in the
case is a request for nominal damages, the case is moot.
ARGUMENT
I. Our Judicial System and This Court's
Jurisprudence Are Based on Adherence to
the Constitutional Requirement that Federal
Courts May Only Entertain Actual Cases and
Controversies.
A. The mootness doctrine is necessary to
ensure that an actual case or controversy
exists at all stages of the litigation.

Article III of the Constitution restricts the
jurisdiction of federal courts to "Cases" and
"Controversies." Chafin v. Chafin, 568 U.S. 165, 17172 (2013). The words "Cases" and "Controversies"
limit the business of federal courts to questions
presented in an adversarial context and "define the
role assigned to the judiciary in a tripartite allocation
of power to assure that the federal courts will not
intrude into areas committed to the other branches of
government." Flast v. Cohen, 392 U.S. 83, 94-95
(1968). To establish a case or controversy, "[t]he
plaintiff must have (1) suffered an injury in fact, (2)
that is fairly traceable to the challenged conduct of
the defendant, and (3) that is likely to be redressed by
a favorable judicial decision." Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1547 (2016).
Injury in fact is thus a constitutional requirement.
Id. The injury must affect the plaintiff in a personal

7
and individual way, and it must be concrete. Id. at
1548. Although an injury may be intangible, it still
must exist. Id. at 1549. The injury must also be
redressable by a favorable decision in the lawsuit.
Lujan ,v. Defs. of Wildlife, 504 U.S. 555, 561 (1992).
These requirements ensure that the named plaintiff
is a proper party to prosecute the claims, an element
fundamental to our adversarial justice system. In this
adversary system, the parties not only frame the issues
but also develop the evidence and arguments. See
Castro v. United States, 540 U.S. 375, 386 (2003)
(Scalia, J., concurring in part and concurring in
judgment) ("Our adversary system is designed around
the premise that the parties know what is best for
them, and are responsible for advancing the facts and
arguments entitling them to relief."); Pennsylvania v.
Finley, 481 U.S. 551, 568 (1987) ("The very premise of
our adversarial system . . . is that partisan advocacy on
both sides of a case will best promote the ultimate
objective that the guilty be convicted and the innocent
go free.").
The mootness doctrine enforces this constitutional
requirement that an actual controversy exist "at all
stages of review, not merely at the time the complaint
is filed." Alvarez v. Smith, 558 U.S. 87, 92-94 (2009).
A case is moot when the issues presented are no
longer live or the parties lack a legally cognizable
interest in the outcome. City of Erie v. Pap's A.M., 529
U.S. 277, 287 (2000). Otherwise, the litigation is no
longer about the plaintiffs particular legal rights but
is merely an "abstract dispute about the law," which
"falls outside of the constitutional words 'Cases' and
`Controversies.' Alvarez, 558 U.S. at 92-94 (2009).

8
The decision below recognized that the mootness
doctrine appropriately applied to this case. This rule,
clarifying that a case is moot if the challenged law has
been changed and the only remaining issue is nominal
damages, ensures fidelity to the Constitution's
mandate that federal courts' jurisdiction be limited to
actual cases or controversies. As this Court has
stated, "[a] federal court is without power to decide
moot questions or to give advisory opinions which
cannot affect the rights of the litigants in the case
before it." St. Pierre v. United States, 319 U.S. 41, 42
(1943); see also North Carolina v. Rice, 404 U.S. 244,
246 (1971) ("Mootness is a jurisdictional question
because the Court is not empowered to decide moot
questions or abstract propositions."). Strict adherence
to the case-or-controversy requirement is especially
important when a court is asked to decide a
constitutional question, since "[a] fundamental and
longstanding principle of judicial restraint requires
that courts avoid reaching constitutional questions in
advance of the necessity of deciding them." Lyng v.
Nw. Indian Cemetery Protective Ass'n, 485 U.S. 439,
445 (1988); see also Ashwander v. Tenn. Valley Auth.,
297 U.S. 288, 347-48 (1936) ("The Court will not pass
upon the validity of a statute upon complaint of one
who fails to show that he is injured by its operation.").
B. Nominal damages alone do not satisfy the
redressability requirement.

When a plaintiff sufficiently alleges facts supporting
an actual injury in fact and compensable damages, a
change in the law at issue will not render the case moot.
See, e.g., Mission Prod. Holdings, Inc. v. Tempaology,
LLC, 139 S. Ct. 1652, 1660 (2019). The reason for this
principle is simple: if there is a claim for actual
damages, the case is not just an abstract argument

9
about legal rights but rather a case seeking redress for
a compensable injury. In short, when potential
compensatory damages exist, a claim is capable of
redress and an actual case or controversy exists.
But redressability disappears if the only issue in
the case is nominal damages. "Emotional involvement
in a lawsuit is not enough to meet the case-orcontroversy requirement." Ashcroft v. Mattis, 431
U.S. 171-73 (1977). If it were, "few cases would ever
become moot." Id; see also Diamond v. Charles, 476
U.S. 54, 66 (1986) ("Article III requires more than a
desire to vindicate value interests.").
A nominal damages award provides nothing more
than moral satisfaction, akin to a declaration that a
past practice was unconstitutional. This Court
recognized as much in Farrar v. Hobby, 506 U.S. 103
(1992). There, plaintiffs sought $17 million in
compensatory damages. Id. at 106. As to one
defendant—Hobby—a jury found that he had
deprived the plaintiffs of a civil right but that the
plaintiffs suffered no damages from that deprivation.
Id. On appeal, the circuit court remanded the case for
entry of judgment against Hobby for nominal
damages. Id. at 107. The issue presented to this Court
was whether the award of nominal damages made the
plaintiffs the prevailing party for purposes of
recovering attorney's fees under 42 U.S.C. § 1988. The
Court held that a plaintiff who obtains nominal
damages is technically a prevailing party. Id. at 113.
Even so, the Court explained that, despite being the
prevailing party, the plaintiffs should not be awarded
attorney's fees. Id. at 115. The Court emphasized that
the award of nominal damages was purely an
emotional victory: "This litigation accomplished little
beyond giving petitioners the moral satisfaction of

10
knowing that a federal court concluded that [their]
rights had been violated in some unspecified way." Id.
at 114.
Justice O'Connor's concurrence in Farrar further
explained that denial of attorney's fees was dictated
by both the law and common sense. Id. at 116
(O'Connor, J., concurring). When a plaintiffs success
is purely technical or de minimis, it is "only a Pyrrhic
victory for which the reasonable fee is zero." Id. at
117. "Chimerical accomplishments are simply not the
kind of legal change that Congress sought to promote
in the fee statute." Id. at 119.
The mootness rule espoused in the decision below
would prevent cases without redressable injury from
proceeding through the judicial system solely to
attain the "Chimerical accomplishments" that the
Court sought to discourage in Farrar. The rule moots
those cases in which the only practical result of a
judgment is an emotional victory. Although
petitioners repeatedly focus on the Court's statement
from Farrar that an award of nominal damages
"materially alter[s] the legal relationship between the
parties by modifying the defendant's behavior in a
way that directly benefits the plaintiff," Pet. Br. 22,
23, 24, the logic of Farrar shows the opposite: the
Court determined that the nominal damages award
accomplished little beyond providing moral
satisfaction to the plaintiffs. Farrar, 506 U.S. at 114.
As Farrar implicitly recognized, when an award of
nominal damages will only provide the plaintiff the
moral satisfaction of a conclusion that her rights had
been violated, the litigation should stop. The
possibility that one dollar might exchange hands
should not keep the case alive. If it were otherwise,

11
the Court in Farrar would have allowed for attorney's
fees to the plaintiffs.
A contrary rule (that a request for nominal
damages alone prevents mootness) conflicts with both
the redressability requirement and with common
sense. A rule that allows a prayer for nominal damages
to render an otherwise moot issue still a "Case" or
"Controversy" under Article III would mean that no
case involving a constitutional claim would ever be
moot, even if the claim were not redressable. Any
alleged deprivation of a constitutional right will
support a prayer for nominal damages. Carey v.
Piphus, 435 U.S. 247, 266 (1978). Thus, so long as a
plaintiff includes a request for nominal damages, the
case would never be moot even if the plaintiff suffered
no injury, subsequent events (such as a change in the
law) make it clear that the allegedly wrongful behavior
could not reasonably be expected to recur, and the
plaintiff had nothing further to gain from the
litigation. The case would continue, and federal courts
would be called on to issue what is just an advisory
opinion on a constitutional issue. This outcome is
contrary to the longstanding principles that
constitutional questions should be avoided if possible
and that the validity of a statute should be addressed
only if the plaintiff shows that she is injured by its
operation. Lyng, 485 U.S. at 445; Ashwander, 297 U.S.
at 347-48.
C. The decision below is consistent with the
prohibition against advisory opinions.
The prohibition against advisory opinions is
supported in part by the rationale that advisory
opinions may result from less than vigorous advocacy
by either or both parties when little is at stake. When

12
a suit relates to constitutional or public policy issues,
and may have significant implications beyond the
named parties, it is especially imperative that the
litigants are appropriately motivated. The decision
below ensures as much. If cases could still proceed
after the relevant law or policy has been changed, a
defendant may not be motivated to defend the former
law or policy. Likewise, a plaintiff may decide that a
bare claim for nominal damages is .not worth
vigorously prosecuting. And if the law has already
been changed, and the only thing that remains is a
claim for nominal damages, the parties may be more
motivated by the collateral consequences of a
judgment (such as the potential for an award of
attorney's fees) rather than a resolution of the
substantive claims or the constitutionally correct
result.
In these situations, both judicial resources and
the taxpayer resources of the governmental entities
defending such litigation would be better spent on
cases or controversies in which a judgment would
have more than symbolic value. Cf. Pearson v.
Callahan, 555 U.S. 223, 236-37 (2009) (recognizing
that qualified immunity should be determined early
in the case to prevent the "expenditure of scarce
judicial resources on difficult questions that have
no effect on the outcome of the case"). This is
particularly true today, when "federal courts [are]
faltering under crushing caseloads." Tim Ryan,
Senators Urge Addition of Judgeships as Caseloads
Balloon, Courthouse News Service (June 30, 2020),
https://www.law360.com/articles/1287677/key-senators
want-to-add-new-federal-judgeships-this-year. Since
1992, case filings in the federal courts have increased
by 55%; the federal judiciary has grown just 4% in

13
that same time, and the last new seats on the federal
bench were created in 2002. Andrew Kragie, Key
Senators Want to Add New Federal Judgeships This
Year, Law360 (June 30, 2020). Civil rights suits
against school districts are also on the rise, according
to a 2017 report. Civil Rights Suits Against Schools
More Than Double in Last Four Years, Transactional
Records Access Clearinghouse (Aug. 16, 2017),
https://trac.synedukracreports/civil/478/. In a time
when bipartisanship is rare in Congress, both
Republicans and Democrats alike are pushing for
more federal judgeships to ease "crushing caseloads."
Meanwhile, the federal judiciary itself recommended
in 2019 that 73 new district court judgeships be
created to address the proliferation of federal
litigation. See Kragie, supra. Petitioners' proposed
rule stands only to increase this already momentous
strain on the judiciary, and for the sole purpose of
achieving what are essentially just advisory
opinions.
Finally, federal courts need not issue advisory
opinions when a law or policy has changed because
there are already enough real cases and controversies
that allow for the bounds of constitutional law to be
set. For example, amici's research indicates that in
the last five years, petitioners' counsel Alliance
Defending Freedom alone has been plaintiffs counsel
for 112 civil rights lawsuits, and amici supporting
petitioners—Council on American-Islamic Relations,
Pacific Legal Foundation, Public Citizen Litigation
Group, American Civil Liberties Union, and Institute
for Justice—have filed more than 1,100 civil rights

14
lawsuits.2 Cases that seek nominal damages alone
and would be mooted after a change in law or policy
are rare. There are enough opportunities for
constitutional law to be established without needing
to add those that are seeking an advisory opinion to
the courts' dockets.
D. A rule that nominal damages alone
prevent mootness allows an end run
around the Court's rejection of the
"catalyst theory."

Under the "catalyst theory," a plaintiff would be
considered the prevailing party for the purpose of
entitlement to attorney's fees under 42 U.S.C. § 1988
if the plaintiff's lawsuit caused a change in the
defendant's conduct. See Buckhannon Bd. & Care
Home, Inc. v. W. Va. Dep't of Health & Human Res.,
532 U.S. 598, 602 (2001). Although most circuit courts
had recognized such a theory, this Court squarely
rejected it in Buckhannon. Id. at 604. This Court held
that a party can only be deemed a prevailing party if
that party obtains judicial relief through a judgment
or consent decree. Id. at 604. The Court specifically
rejected the argument that the "catalyst theory" was
necessary to prevent defendants from unilaterally
mooting an action in an effort to avoid fees as "entirely
speculative and unsupported by any empirical
evidence." Id. at 608. The Court further noted that
this issue could only arise in cases without a claim for
actual damages, and even in those circumstances the
case would not be moot unless it was "clear that the
allegedly wrongful behavior could not reasonably be
expected to recur." Id.

2

Statistics obtained from Monitor Suite and Bloomberg Law.

15
These concerns, already addressed in
Buckhannon, are the same that petitioners and their
amici advance here. As in Buckhannon, they should
be rejected. As this Court noted, the "catalyst theory"
might deter defendants from voluntarily changing
their conduct:
Petitioners discount the disincentive that the
"catalyst theory" may have upon a defendant's
decision to voluntarily change its conduct,
conduct that may not be illegal. The
defendants' potential liability for fees in this
kind of litigation can be as significant as, and
sometimes even more significant than their
potential liability on the merits..., and the
possibility of being assessed attorney's fees
may well deter a defendant from altering its
conduct.
Id. (internal citation and quotation omitted). A
rule holding that a request for nominal damages
prevents mootness would present the same deterrent
effect, particularly for governmental entities.
The decision below prevents recurrence of this
disincentive by ensuring that plaintiffs cannot
circumvent Buckhannon by simply including a
perfunctory request for nominal damages. Under the
rule that petitioners propose, even if a defendant
voluntarily changes a law or policy and the allegedly
wrongful behavior could not be reasonably expected
to occur, a plaintiff could still attain prevailing party
status and entitlement to attorney's fees just by
requesting nominal damages. As the Court recognized
in Buckhannon, this outcome creates a disincentive
for defendants to voluntarily change the law or policy
at issue for fear of being subject to an award of

16
attorney's fees. By contrast, the decision below
encourages a voluntary change in the law or policy, as
the change could end the litigation and prevent a
debilitating award of attorney's fees on a
governmental entity with an already strained budget.
The policy benefits of the decision below are plain.
And again, plaintiffs who have suffered actual
injuries can still seek compensation (and attorney's
fees) if they obtain a favorable judgment.
II. Federalism Supports Adoption of the
Decision Below.
Under our federalist system of government, the
role of states, local governments, and school districts
in promoting and protecting the public interest
cannot be overstated. Pursuant to the Tenth
Amendment to the United States Constitution, all
powers not granted to the federal government are
reserved to the states and the local governments. As
a practical matter, then, states, local governments,
and school districts are charged with protecting and
promoting the public interest in myriad ways, and
they are uniquely situated to do so. As Justice
Marshall stated, "Mocal officials, by virtue of their
proximity to, and their expertise with, local affairs,
are exceptionally well qualified to make
determinations of public good within their respective
spheres of authority." City of Richmond v. J.A. Croson
Co., 488 U.S. 469, 544 (1989) (Marshall, J.,
dissenting). Governmental entities must often make
difficult judgment calls affecting the constitutional
rights of individuals under circumstances in which
the law is not clear. If a state, local government, or
school district later determines that a law or policy
should be rescinded or modified because the
circumstances have changed, competing interests

17
have been reevaluated, or the constitutionality of the
law or policy has been questioned, it should not be
punished by facing expensive and time-consuming
litigation when there has been no compensable harm.
It is indisputably challenging for states, local
governments, and school districts to adopt and
implement constitutionally compliant laws and
policies. This Court's thousands of decisions
interpreting the Constitution, which often include
multiple dissenting and concurring opinions,
illustrate that constitutional jurisprudence is
extraordinarily complex. And the sheer volume of
issues that states, local governments, and school
districts encounter often means that previous caselaw
does not clearly match the issue presented. It is
therefore unsurprising that when public servants
with little or no legal training must implement
policies, particularly when time is of the essence,
there might be a reasonable debate on whether they
have acted constitutionally. See, e.g., Morse v.
Frederick, 551 U.S. 393, 397 (2007) (holding 5-4 that
a high school principal did not violate the First
Amendment when she disciplined a student who
unfurled a banner stating "BONG HiTS 4 JESUS"
during an approved school event). As Chief Justice
Roberts recognized in Morse:
School principals have a difficult job, and a
vitally important one. When Frederick
suddenly and unexpectedly unfurled his
banner, Morse had to decide to act—or not
act—on the spot. It was reasonable for her to
conclude that the banner promoted illegal drug
use—in violation of established school policy—
and that failing to act would send a powerful
message to the students in her charge,

18
including Frederick, about how serious the
school was about the dangers of illegal drug
use.
Id. at 409-10. When governmental entities reevaluate
and change a law or policy, and the old law or policy
has caused no compensable injury, a federal court
advisory opinion is unwarranted.
The responses of states and local governments to
the ongoing COVID-19 pandemic provide a timely
example of the challenges inherent to adopting and
implementing law or policy in the face of constitutional
complexity. To protect the public interest in the face of
a public health emergency, state and local
governments countrywide have instituted emergency
orders. These orders necessarily limited individual
rights in ways that could not have been fathomed just
a short time ago. As a result of these orders, many
state and local governments and government officials
have faced and continue to face lawsuits challenging
the breadth of the orders. See, e.g., Agudath Israel of
Am. v. Cuomo, --- F.3d ---, 2020 WL 6559473, at *3 (2d
Cir. Nov. 9, 2020); Harvest Rock Church, Inc. v.
Newsom, 977 F.3d 728, 730 (9th Cir. 2020). Some of
those lawsuits have made their way to this Court, and
the central issue in those cases—whether religious
speech may be treated better or worse than other
speech—is one that is extremely fraught. Calvary
Chapel Dayton Valley v. Sisolak, 140 S. Ct. 2603, 2608
(2020); S. Bay United Pentecostal Church v. Newsom,
140 S. Ct. 1613, 1614 (2020).
In many instances, the emergency orders have
been rescinded or modified as more information has
become available to government officials and as time
has allowed for more precise drafting of such orders.

19
See, e.g., Maryville Baptist Church, Inc. v. Beshear,
977 F.3d 561, 563 (6th Cir. 2020); S. Wind Women's
Ctr. LLC v. Stitt, 823 F. App'x 677, 679 (10th Cir.
2020) (per curiam); Spell v. Edwards, 962 F.3d 175,
178 (5th Cir. 2020). Chief Justice Roberts has noted
that under our federalist system, state and local
government officials must make judgment calls about
what policies both are constitutional and protect the
public's health and safety. S. Bay United Pentecostal
Church, 140 S. Ct. at 1613-14 (Roberts, C.J.,
concurring in denial of application for injunctive
relief).
The precise question of when restrictions on
particular social activities should be lifted
during the pandemic is a dynamic and factintensive matter subject to reasonable
disagreement. Our Constitution principally
entrusts the safety and the health of the people
to the politically accountable officials of the
States to guard and protect. When those
officials undertake to act in areas fraught with
medical and scientific uncertainties, their
latitude must be especially broad. Where those
broad limits are not exceeded, they should not
be subject to second-guessing by an unelected
federal judiciary, which lacks the background,
competence, and expertise to assess public
health and is not accountable to the people.
Id. (internal quotations and citations omitted).
And sometimes those judgment calls must change in
the face of new information. Calvary Chapel, 140 S.
Ct. at 2605 (Alito, J., dissenting from denial of
application for injunctive relief) ("As more medical
and scientific evidence becomes available, and as

20
states have time to craft policies in light of that
evidence, courts should expect policies that more
carefully account for constitutional rights.").
As these orders change or are rescinded, if
lawsuits challenging them assert no claim for
compensatory damages, then those lawsuits should
end—there is nothing to be gained by continued
litigation. A rule that nominal damages alone can
keep a case alive would only spend diminishing public
resources on litigation long after the restrictions have
been lifted or changed. On the other hand, a rule
confirming mootness in such situations would
encourage public officials to act decisively in the
public interest, knowing that they could vacate or
modify emergency orders when appropriate without
fear of protracted litigation when only nominal
damages are at stake. And again, individuals who
suffered actual compensable injury would still be able
to pursue claims for damages. Federalism suggests
that federal courts should remove themselves from
disputes that states, local governments, and school
districts have already resolved.
The precise situation presented by the COVID-19
pandemic will prove to be rare, one hopes. But other
recent, high-profile events also show that government
officials should have latitude to react to rapidly
developing situations in which public safety is
imperiled without fear of federal court involvement if
they later change a law or policy. This summer, for
example, many local governments enacted curfews in
response to racial justice demonstrations and protests
that became violent. Just as with the pandemic
restrictions, lawsuits ensued. See, e.g., Black Lives
Matter — L.A. v. Garcetti, No. 2:20-cv-04940-PSG-PVC
(C.D. Cal. filed June 3, 2020). Under petitioners'

21
proposed rule, the local governments implementing
temporary curfews might be mired in lengthy and
expensive litigation that continues long after the
curfews are lifted, even if the plaintiffs suffered no
actual injury—so long as the plaintiffs included a
perfunctory claim for nominal damages in their
complaint.
The ever-changing world of technology provides
more mundane examples of situations that do not
always fit neatly into a body of established law. While
social media has been popular for more than fifteen
years, only a handful of cases have decided whether
government officials can block individuals from
posting from accounts that they use (as least in part)
for government business. See generally Robinson v.
Hunt Cty., 921 F.3d 440 (5th Cir. 2019); Davison v.
Randall, 912 F.3d 666 (4th Cir. 2019). Similarly,
courts have struggled with determining when school
officials may constitutionally search student cell
phones. See, e.g., Jackson v. McCurry, 762 F. App'x 919
(11th Cir. 2019). And lower courts have disagreed
about whether and when students may be disciplined
for off-campus speech. B.L. ex rel. Levy v. Mahanoy
Area Sch. Dist., 964 F.3d 170, 189 (3d Cir. 2020),
petition for cert. filed, (U.S. Aug. 28, 2020) (No. 20-255).
As shown by the continued litigation, many states,
local governments, and school districts have chosen to
keep their laws or policies in place and defend them.
But when a governmental entity chooses to change its
law or policy—either because it agrees that the law or
policy might be unconstitutional or because it lacks
the resources or community support to defend the law
or policy—and only a claim for nominal damages
remains, all that is left for a federal court to do is issue

22
an advisory opinion. Federalism requires a different
result.
Given these complexities (which will always exist,
no matter the number of cases decided by the federal
courts), the public interest is best served by policies
that allow government officials to act in real time and
to adapt to changing circumstances and the
unanticipated consequences of their official acts. By
the same token, the public interest is harmed when
government officials cannot act quickly and decisively
in the face of immediate threats out of fear that
someone might challenge that act and then drag the
governmental entity through endless litigation—even
if the government changes the challenged law and
nobody suffered actual injury from any potential
infringement of rights.
The rule from the decision below is also supported
by this Court's jurisprudence in other aspects of
constitutional law. This Court's immunity precedent
and the presumption that government officials act in
good faith, both of which this Court has adopted in
recognition of the challenges that governmental
entities and their officials face in adopting and
implementing constitutional policies, support a
finding of mootness in cases like'this. This Court has
held that state and local legislators are entitled to
absolute immunity from liability for their legislative
acts. See Bogan v. Scott-Harris, 523 U.S. 44, 48-49
(1998). Likewise, this Court has held that qualified
immunity protects all government officials from
liability for civil damages, so long as their conduct
does not violate clearly established statutory or
constitutional rights that a reasonable person would
have known. Pearson, 555 U.S. at 231. In addition,
the law has long afforded government officials a

23
presumption that they will act in good faith.3 See Beck
v. Ohio, 379 U.S. 89, 97 (1964) (assuming police
officers acted in good faith). The same policies that
underlie the deference afforded by absolute and
qualified immunity, and the presumption of good
faith afforded government officials, support adopting
the decision below that government officials should
not be subjected to litigation over one dollar when
they have changed a challenged law or policy. The
case is moot.
III. Local Governments Cannot Simply End the
Litigation by Accepting an Entry of
Judgment.
The United States suggests in its amicus brief that
when there is no live claim for prospective relief or
compensable harm, a defendant can just end the
litigation without a resolution of the constitutional
merits by simply "conceding" and accepting entry of
judgment for nominal damages. U.S. Br. 29. This
proposed "solution" should be rejected. First, a
government that is presumed to have acted in good
faith should not have to accept fault when no court
has ruled on the merits. A change in policy is not a
concession of unconstitutionality. Indeed, a
governmental entity may change a policy upon being
sued for many reasons other than unconstitutionality,
including: the community supports the policy change
regardless of whether it is legally required; the
governmental entity does not want the potential
3 Petitioners' argument that local governments will "routinely
ignore [constitutional rights]," Pet. Br. 44, turns this
presumption on its head. Petitioners start from the position that
their proposed rule is necessary because government officials
should be presumed to act nefariously. Such a presumption is
entirely unjustified and without evidence to support it.

24
reputational damages associated with protracted
litigation; or the governmental entity cannot afford or
does not want to expend limited taxpayer resources
on litigation.
Second, governments may experience other
negative collateral consequences by simply accepting
a judgment against them. A judgment of a
constitutional violation can negatively impact bond
ratings; it can raise a government's insurance costs; it
can impact a local government's ability to receive
grants or qualify for other funding programs (like
HUD Community Development Block Grants or
United States Department of Transportation Federal
Transit Administration grants); and it can erode
citizens' trust in their local governments and
governing officials. A judgment entered in such a
situation might also be alleged as evidence of a "policy
or practice" for Monell claims under 42 U.S.C. § 1983,
thus allowing constitutional litigation against a local
government or school board to proceed when it
otherwise would be dismissed. See Oklahoma City v.
Tuttle, 471 U.S. 808, 823-24 (1985) (plurality opinion)
(explaining that proof of a single incident of the
unconstitutional activity charged is not sufficient to
prove the existence of a municipal custom). Finally, in
many cases (such as the one below) government
officials are named individually as defendants. These
public servants cannot be expected to accept a
judgment against them personally, along with all of
the attendant negative consequences, to avoid
protracted litigation. In short, the United States'
proposal stands to cost states, local governments, and
school districts much more than a single dollar in
nominal damages.

25
Third, the United States' argument fails to
recognize that entry of judgment for nominal
damages would not end the litigation. The plaintiff in
such a circumstance would almost certainly seek
attorney's fees as the prevailing party. Thus, the
United States' position would create the same
disincentive to a governmental entity changing the
law or policy that this Court cited in rejecting the
catalyst theory in Buckhannon. And it would allow
large, well-funded advocacy organizations to
intimidate, through the threatened cost of litigation,
small local governments and school districts into
changing laws or policies that may be legally
defensible—and still collect fees to boot. That is
simply the catalyst theory in disguise.
IV. A Desire for Additional Law Does Not
Justify Disregarding Mootness.
Petitioners and many of their amici argue that
their preferred rule is necessary to make clearly
established law for the purposes of a qualified
immunity analysis. For example, one amicus states
that an "award of nominal damages sets a new
baseline for Respondents and other state officials
because a determination that Respondents violated
Petitioners' First Amendment rights will be used to
evaluate whether law is 'clearly established' for
purposes of qualified immunity proceedings."
Christian Legal Society Br. 8. That assertion is true
only if a court actually determines, one way or the
other, whether the policy violated the Constitution. If
the court instead merely recognized government
officials' qualified immunity, as it may under Pearson,
no additional "baseline" would be set. Regardless, this
argument is beside the point. Courts decide "Cases"
and "Controversies; they do not clarify constitutional

26
jurisprudence for the sake of a future hypothetical
case.
Additionally, an amicus argues that "[b]y allowing
plaintiffs to • pursue nominal damages claims for
constitutional injuries, the Court mitigates Pearson's
constitutional stagnation problem." Christian Legal
Society Br. 11. But this Court was aware of the
possibility of "constitutional stagnation" when it
decided Pearson and still rejected the mandatory twostep qualified immunity analysis from Saucier v.
Katz, 533 U.S. 194 (2001). Pearson,, 555 U.S. at 232.
In fact, the policy reasons underlying this Court's
rejection of Saucier's requirement that courts must
always determine whether the Constitution was
violated highlight the same problems that petitioners'
proposed rule would create:
"The procedure sometimes results in a
substantial expenditure of scarce judicial
resources on difficult questions that have no
effect on the outcome of the case." Id. at 236-37
(emphasis added).
"District courts and courts of appeals with
heavy caseloads are often understandably
unenthusiastic about what may seem to be an
essentially academic exercise." Id. at 237
(emphasis added).
"Unnecessary litigation of constitutional issues
also wastes the parties' resources." Id.
(emphasis added).
Because of the fact-dependent nature of some
constitutional questions, "opinions following
[the Saucier rule] often fail to make a

27
meaningful contribution to such development."
Id. (emphasis added).
The Saucier rule may create a risk of bad
decision-making, as the "lower courts
sometimes encounter cases in which the
briefing of constitutional questions is woefully
inadequate," id. at 239, and there is a "risk that
constitutional questions may be prematurely
and incorrectly decided in cases where they are
not well presented." Id. (emphasis added).
"Adherence to Saucier's two-step protocol
departs from the general rule of constitutional
avoidance and runs counter to the older, wiser
judicial counsel not to pass on questions of
constitutionality . . . unless such adjudication
is unavoidable." Id. at 241 (emphasis added)
(internal quotations and citations omitted).
A more flexible rule "properly reflects our
respect for the lower federal courts that bear
the brunt of adjudicating these cases." Id. at
242 (emphasis added).
The above rationales for rejecting Saucier's twostep process apply with equal force to the question
here, and this Court should therefore conclude that
the case below is moot. A rule that nominal damages
alone prevent mootness, on the theory that it will
create needed constitutional law, is a solution in
search of a problem. If judges want to develop the law
in a particular area for the purposes of qualified
immunity, there are sufficient opportunities for this
Court and the lower courts to do so in cases alleging
an actual, compensable injury.

28
CONCLUSION
For the foregoing reasons, the judgment of the
court of appeals should be affirmed.
Lisa Soronen
Executive Director
State & Local Legal Center
444 North Capitol Street, N.W.
Suite 515
Washington, D.C. 20001
(202) 434-4845
lsoronen@sso.org

/s/ Patrick M. Kane
Patrick M. Kane
(counsel of record)
Kip D. Nelson
Fox Rothschild LLP
230 N. Elm Street
Suite 1200
Greensboro, NC 27401
(336) 378-5200
PKane@foxrothschild.com
KNelson@foxrothschild.com
Christopher McNamara
Fox Rothschild LIP
345 California Street
Suite 2200
San Francisco, CA 94104
(415) 539-3357
CMcNamara@foxrothschild.com

Counsel for Amici Curiae

